                                                             ASSESSMENT




   REVIEW OF U.S. PARK POLICE
   WEAPONS ACCOUNTABILITY
   PROGRAM




This is a version of the report prepared for public release. Changes have
been made to the internal report consistent with 5 U.S.C. §§ 552 (b)(6) of
the Freedom of Information Act (FOIA).




  Case No.: PI-PI-13-0141-I                                       June 2013
              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR



Memorandum
                                                                               JUN 2 7 2013

To:            Jonathan B. Jarvis
               Director, National Park Service

               Teresa Chambers
               Chief of Police, U.S. P

From:          Mary L. Kendall
               Deputy Inspector Genera

Subject:       Review of U.S. Park Police Weapons Accountability Program
               Case No. PI-PI-13-0141-I

        The Office oflnspector General (OIG) has concluded its review into allegations
regarding the accountability, accuracy, and oversight ofthe U.S . Park Police (USPP) firearms
inventory. The accompanying report provides ample evidence that USPP's firearms management
requires immediate attention to address the multitude of problems we found, which ranged from
fundamental errors in recordkeeping to glaring nonfeasance by senior command officers.

        We initially set out to determine ifUSPP could account for all military-style weapons in
its inventory, whether USPP had intentionally concealed missing weapons, and whether officers
used USPP weapons for their personal use. Our efforts to definitively address the allegations
were hindered by a failure of the USPP property and firearms custodians to provide a baseline
inventory and accounting of firearms. We found credible evidence of conditions that would
allow for theft and misuse of firearms, and the ability to conceal the fact if weapons were
m1ssmg.

        After detecting the accountability and systemic management and oversight failure of the
firearms inventory, OIG discontinued its efforts to prove or disprove the allegations and altered
our plan of action by reviewing USPP firearms management. As a result of our review, our
report includes 10 recommendations that, if implemented, will improve firearms management.

        This report further underscores the decade-long theme of inaction and indifference of
USPP leadership and management at all levels. Basic tenets of property management and
supervisory oversight are missing in their simplest forms. Commanders, up to and including the
Chief of Police, have a lackadaisical attitude toward firearms management. Historical evidence
indicates that this indifference is a product of years of inattention to administrative detail and
management principles.

        In 2008, we conducted an assessment of several aspects of USPP operations. At that time,
we found a number of weaknesses in USPP's management and operations that adversely affected
the level of security at national icons and presented officer safety concerns. We also reported that


                                Office of Inspector General I Washington, DC
we observed indications of a systemic absence of management and oversight by senior agency
officials that impacted the effective functioning of USPP. In our 2008 report, we provided 20
recommendations for improvement. The recommendation regarding property management is
repeated in this report.
        In 2009, we reviewed the firearms inventory controls of the U.S. Department of the
Interior law enforcement programs, which include USPP. At that time, we found a disconcerting
attitude toward firearms accountability within USPP. In particular, we found that firearms
custodians were unaware of the number of guns in their inventory or of the origin of these guns,
and that guns physically present were not listed on the inventory.

       We strongly recommend that immediate action be taken to establish a professionally
responsible firearms management program in USPP. We have little confidence that USPP has the
managerial commitment to carry out this effort without direct and frequent oversight from the
National Park Service and OIG. We intend to conduct a series of reviews and inspections
regarding USPP programs and accountability.

       Please provide my office with a response to this report and your plans to address the
recommendations within 45 days. We have also included a Report of Accountability Form for
any personnel action you may deem appropriate.




                                               2
Table of Contents
Synopsis .................................................................................................................. 1
Details ..................................................................................................................... 2
  No Effective Firearms Inventory Program .......................................................... 2
       Inventory Documentation and Process ............................................................ 3
       Weapons Acquisition ....................................................................................... 5
   Management and Supervision of Firearms Program ........................................... 7
       Unaccounted-for Weapons Reported to Management..................................... 7
       Limited Supervision by Management.............................................................. 9
       Failure To Fully Reconcile Unaccounted-for or Missing Weapons ................ 9
       Determination of Need for New Weapons .................................................... 10
       Key Personnel With Limited Property Management Training or Policy
       Knowledge ..................................................................................................... 11
       Limited USPP-specific Policies..................................................................... 11
       Board of Survey for Missing or Unserviceable Weapons Not Conducted .... 12
Recommendations ................................................................................................. 13
Synopsis
An anonymous complaint recently led the Office of Inspector General (OIG) to
investigate the management and supervision of the U.S. Park Police (USPP)
firearms program. OIG conducted simultaneous, unannounced inspections of
unassigned weapons at USPP facilities to follow up on allegations that USPP
could not account for Government-issued military-style rifles, that it had
incomplete weapons inventories that undermined its accountability for all of its
weapons, and that weapons that could not be located might have been taken by
USPP officers for personal use. During these site visits and subsequent interviews
with key USPP firearms program personnel, OIG identified systemic internal
control weaknesses that have impaired USPP’s ability to properly account for and
monitor weapons acquired for agency use. This inability to properly account for
and monitor weapons creates an environment where weapons are vulnerable to
theft or misuse.

We found that staff at all levels—from firearms program managers to their
employees—had no clear idea of how many weapons they maintained due to
incomplete and poorly managed inventory controls. As a result, we discovered
hundreds of handguns, rifles, and shotguns not accounted for on official USPP
inventory records.

We also found that individuals appointed to oversee the program, which includes
accountability for all USPP weapons, gave only minimal supervision to officers
and other program staff having access to unassigned weapons. Firearms managers
accepted verbal assurance that firearms inventories were completed correctly
rather than taking personal responsibility for accuracy. This situation created
discrepancies between firearms accounted for in the USPP inventory and those
weapons that were on hand but not included in inventory records.

Finally, managerial inaction contributed to limited training and knowledge of
policies associated with firearms accountability procedures. We were unable to
establish the existence of a clear USPP policy or procedure for reporting and
investigating missing weapons, and also no clear process for communicating such
information. USPP failed to comply with U.S. Department of the Interior policy
governing firearms.

Due to the noncompliant and ad hoc USPP firearms inventory method, we could
not determine with any degree of accuracy whether any USPP personnel had
taken weapons for unauthorized use. USPP’s inability to consistently and
accurately account for weapons left us with insufficient data on which to base
such a determination.



This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) of the Freedom of Information
Act (FOIA).
                                                                                             1
Details
The Office of Inspector General (OIG) initiated this review after an anonymous
complaint alleged that the U.S. Park Police (USPP, or the Force) could not
account for Government-issued military-style rifles. The complaint also alleged
that complete weapons inventories had not been conducted because USPP could
not account for all of its weapons. The complainant also alleged that weapons that
USPP could not locate might have been taken by USPP officers for personal use.

From February 11 to February 15, 2013, we conducted unannounced reviews of
USPP weapons storage areas in Washington, DC; Staten Island, NY; San
Francisco, CA; and the Federal Law Enforcement Training Center (FLETC) in
Brunswick, GA. We discovered that hundreds of handguns, rifles, and shotguns
were not listed on official USPP inventory records. Many of these had serial
numbers that had not been submitted to USPP property officers for inclusion into
the property management system. We also found weapons in areas other than
their assigned locations.

During our reviews, we interviewed USPP officials, officers assigned to manage
and monitor the firearms program, and employees responsible for firearms
inventory records. These individuals included high-ranking managers such as
Chief of Police Teresa Chambers; Deputy Chief Victor Chapman, who has
command responsibilities for the firearms program; and Major Jackie Burks, who
commands the USPP Office of Professional Responsibility, which includes the
Audits and Evaluations and the Internal Affairs units. Other interviewees included
a former supervisor of the USPP Internal Affairs Unit, the USPP Force Property
Officer, the Force Assistant Property Officer, the Forcewide Firearms Custodial
Officer (Force Firearms Custodian), and other USPP staff with firearms
responsibilities at various locations.

No Effective Firearms Inventory Program
Section 9.1 of National Park Service (NPS) Handbook 44 limits firearm
acquisition to the minimum necessary for an effective law enforcement program.
During our reviews of USPP field office armories, however, we discovered more
than 1,400 extra weapons. These included 477 military-style automatic and
semiautomatic rifles. The USPP has a force of approximately 640 sworn officers.
We also discovered a number of weapons that, according to USPP officials,
fulfilled no operational need.

Our review revealed that USPP had no proper accounting for hundreds of
weapons. For example, as recently as April 2013, the Force Firearms Custodian
reported two automatic rifles discovered during a firearms search at the USPP
Aviation Unit, part of the Anacostia Operations Facility. The Force Firearms


This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) of the Freedom of Information
Act (FOIA).
                                                                                             2
Custodian had no prior knowledge of these weapons and could not locate any
property records pertaining to them.

We subsequently interviewed the USPP Aviation Unit Commander, who stated
that the Aviation Unit maintained rifles as an extension of the USPP patrol rifle
program. He said this enabled aviation personnel to respond to calls that patrol
vehicles could not reach.

Inventory Documentation and Process
According to NPS Handbook 44, which covers personal property management
policies, physical inventories for firearms must be conducted twice a year—
before March 15 and September 30—and must accurately reflect the firearms
physically on hand. In addition, Handbook 44 requires that special inventories be
conducted when any new firearms custodial officer takes over or when other
circumstances requiring an inventory occur.

The Force Property Officer told us that firearms custodial officers at USPP field
offices reported their respective office’s individual results to the Force Firearms
Custodian and to the Force Assistant Property Officer. The Force Property Officer
said he certified that the firearms inventory had been completed, but he did not
verify its accuracy prior to forwarding it to Chief Chambers, who is the Force
Accountable Property Officer.

The Force Assistant Property Officer further explained that field office firearms
custodial officers sent him copies of their inventory records with needed
corrections, additions, and subtractions so that he could update or otherwise adjust
the property management system. The signature of the field office’s firearms
custodial officer on the last sheet of each inventory confirmed inventory
completion. The Force Assistant Property Officer also said that he believed the
Force Firearms Custodian technically had responsibility for the overall firearms
inventory.

The Force Firearms Custodian said that the last inventory of Force firearms
occurred in June or July 2012 as part of the semiannual inventory. He explained
that the Force Assistant Property Officer sent firearms inventory records
generated from the NPS property management system to each firearms custodial
officer around the country, each of whom had to reconcile and certify these
records against firearms in the unit’s possession. The Force Firearms Custodian
described the inventory process as labor intensive and said it was a challenge to
get each field office to submit its required inventories. He said that once the field
submitted their completed forms, however, no one verified the accuracy of the
information provided.

During our review, we were told that a current official USPP weapons inventory
could not be provided to us because USPP could not access property management

This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) of the Freedom of Information
Act (FOIA).
                                                                                             3
records entered in the U.S. Department of the Interior’s (DOI) new Financial and
Business Management System (FBMS). As a follow-up during our review,
however, OIG readily accessed the USPP firearms inventory in FBMS.

The Force Firearms Custodian explained that he developed a personal spreadsheet
for his own use after being assigned to his current role in April 2011. While
familiarizing himself with the program, he found numerous firearm-related
documents and spreadsheets that had been filed in various locations. During his
review, he said he discovered numerous errors on past official inventory records.

The Force Firearms Custodian chose to develop his own inventory document
because of the errors and incomplete data he found on the official inventory
records. He said that the spreadsheet provided to OIG investigators for our
unannounced review was his working document and thus not entirely accurate. He
had created it from various other firearms inventory documents in an attempt to
identify anomalies, but he had no idea how many firearms USPP possessed as of
the date of our interview.

On July 5, 2012, the Force Firearms Custodian notified the Force Property Officer
of numerous errors on the official property records for the mid-2012 inventory.
He also requested that he receive an updated copy of the corrections prior to these
changes being forwarded to Chief Chambers for her signature.

Overall, the Force Firearms Custodian believed that weapons considered
unaccounted for at that time resulted from typographical errors and poor data
entry, rather than misplacement or other procedural errors. He also reported that
incorrect serial numbers were frequently entered into the official inventory, which
created false records for weapons that did not exist. Consequently, incorrect and
incomplete information was forwarded to Chief Chambers.

Despite OIG’s receipt of allegations of both incorrect data entry and a failure to
document weapons transfers from one location to another, OIG found no
information suggesting that Chief Chambers received any documents indicating
that the second 2012 semiannual inventory information was incomplete.

On August 31, 2012, Chief Chambers signed as complete the second 2012
semiannual inventory conducted by USPP. The Force Firearms Custodian said he
did not sign his portion of that inventory because he did not know if corrections
he requested had been made.

The Force Firearms Custodian said he continued to find and receive weapons
from different locations without NPS property numbers. According to his
estimate, approximately 100 firearms, including shotguns and automatic weapons,
did not have NPS property numbers and did not appear on inventory records.


This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) of the Freedom of Information
Act (FOIA).
                                                                                             4
The Force Firearms Custodian provided several examples of poor weapons
accountability. He recovered a USPP handgun from a U.S. Department of
Housing and Urban Development (HUD) OIG special agent who previously had
been employed on a USPP special weapons and tactics team. According to the
Force Firearms Custodian, the HUD agent ran a firearms qualification course in
2011 for former law enforcement officers who continued to carry firearms while
retired. A former USPP Chief attended this training and still carried a handgun
identified as USPP property. The HUD agent took the weapon from the former
Chief and returned it to USPP. The Force Firearms Custodian did not know why
the former Chief had retained the firearm. 1 OIG is unaware of how USPP
accounted for this weapon on the inventories that followed his retirement.

In addition, during our review of the USPP firearms inventories at FLETC, we
found that one officer who had been detailed to Washington, DC, for the
presidential inauguration in January 2013 retained a semiautomatic rifle without
authorization after he returned from the detail and was storing it at his residence
without proper approval. Similarly, during our review in San Francisco, we found
that a USPP officer stored a shotgun at his residence, again without authorization.

Weapons Acquisition
Section 9.1 of NPS Handbook 44, titled “Law Enforcement Firearms and
Ammunition,” requires the USPP Chief of Police to approve all law-enforcement
firearm acquisitions. Section 9.1 also limits firearm acquisition to no more than
the minimum necessary for an effective law enforcement program.

When interviewed, Chief Chambers said she was unaware of whether this
requirement was being followed. She acknowledged ultimate responsibility for
weapons acquisitions but also said she relied on her staff to manage such issues.
Chief Chambers did not recall any instance where a written request for weapons
had been presented to her. She did recall conversations concerning weapons
transferred to USPP from other agencies.

During our review, we found approximately 1,400 unassigned weapons, which
included extra service handguns, rifles, shotguns, and items awaiting destruction.
The Force Firearms Custodian explained that some of these weapons had been
acquired for spare parts. He intended for others to be used to train officers in how
to handle the variety of firearms they might encounter. In addition, he said, USPP
retained various weapons so that officers could test them as potential off-duty
handguns before purchasing similar personal-use weapons elsewhere.


1
  Subsequent to the issuance of this report, the OIG received corroborated information that the USPP weapon
was transferred with the former Chief to his next job at the U.S. Department of Housing and Urban
Development (HUD) and that he turned it into HUD upon his retirement. Because of its poor firearms
management practices, USPP was unable to verify its version of events and did not know the whereabouts of
the former Chief’s weapon until HUD returned it to them.

This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) of the Freedom of Information
Act (FOIA).
                                                                                                          5
During our unannounced inspection of the Anacostia Operations Facility firearms
room, we discovered 198 handguns that USPP obtained as a transfer from the
Bureau of Alcohol, Tobacco, Firearms, and Explosives (ATF) in January 2013. A
weapons custodian said he originally believed these handguns were a compact
version of the duty weapons currently carried by USPP officers, but realized upon
further investigation that they were not. He said he continued the transfer,
however, to develop a relationship with ATF, believing he could use the weapons
for spare parts or as replacements in the event that officers’ weapons became
contaminated during a weapon of mass destruction (WMD) emergency. When he
received the weapons, the custodian realized that none of the parts matched USPP
service weapons. He also decided against using these guns as replacements during
a WMD emergency. The OIG is unfamiliar with any protocol for stockpiling
firearms in anticipation of a WMD event and found no policy to support such a
practice.

The custodian took no steps to record the handguns transferred from ATF on any
inventory system because he had decided to destroy the weapons. Deputy Chief
Chapman said that he knew the custodian had obtained the guns but did not know
that he had decided to destroy them. Describing weapons obtained from other
agencies, the custodian observed: “If somebody’s giving us something for free,
we’ll take it. And if I don’t need it, I’ll destroy it,” contrary to section 9.1 of NPS
Handbook 44.

The only documentation pertaining to these firearms that the custodian could
provide was the transfer paperwork from ATF. During our documentation review,
we discovered that a handgun serial number had been incorrectly listed on that
paperwork.

We also interviewed a USPP sergeant assigned to FLETC, from whom we learned
that he had received three Colt submachine guns from the Defense Criminal
Investigative Service in May 2012. The sergeant documented the weapons on an
unofficial property inventory spreadsheet that he retained but, at the time of our
interview, he had not transferred the guns to the Force Firearms Custodian or
submitted the proper paperwork to the Force Property Officer so that the weapons
could be included in NPS inventory records. Deputy Chief Chapman said that he
had no knowledge of the transaction and should have been notified.

During our review, we were told of numerous weapons that had limited or no
USPP operational use. These weapons included 20 M1 Garand rifles and 4
Thompson submachine guns (informally known as Tommy guns). The Force
Property Officer and Force Firearms Custodian both said that USPP currently did
not have policies and procedures in place for the destruction of these weapons
ever since the Springfield Armory National Historic Site had stopped accepting
weapons for disposal in 2010.


This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) of the Freedom of Information
Act (FOIA).
                                                                                             6
Management and Supervision of Firearms Program
In 2009, OIG reviewed all DOI bureau firearms programs. During that
assessment, we found inaccurate inventories, procedures that were not followed
for conducting periodic inventories or reporting and investigating missing
firearms, and administrative errors such as lost and unprocessed paperwork or
typographical errors.

During our May 2009 assessment of the firearms program at USPP field offices,
former USPP Chief Salvatore R. Lauro issued a memorandum to personnel
involved in firearms management. In that memorandum, Lauro tasked the Force
Property Officer, Force Assistant Property Officer, and Force Firearms Custodian
with developing specific audit guidelines with which to conduct operational audits
of all firearms operations and records. USPP property management officials said
they had never seen Lauro’s memorandum and that his directives were never
fulfilled.

Unaccounted-for Weapons Reported to Management
On July 28, 2011, the Force Firearms Custodian sent a memorandum to Chief
Chambers, advising her that he was unable to account for numerous weapons and
had also discovered weapons that were not listed on any inventory reports he had.
He also copied the Force Property Officer. The Force Firearms Custodian said
that he knew Chief Chambers had seen the memorandum because he met with her
and members of her staff, including the Force Property Officer, approximately 1
month later to discuss the unaccounted-for weapons.

When asked what direction Chief Chambers provided to him, the Force Firearms
Custodian said that she told him to continue to resolve the discrepancies. He did
not recall receiving any specific direction on what he was supposed to do or a
specific date for completion. He also recalled having a subsequent meeting with
various people, including Deputy Chief Chapman, the Force Property Officer, and
the Force Assistant Property Officer, regarding unaccounted-for weapons and the
firearms inventory. This meeting occurred around the time Deputy Chief
Chapman took over as commander of the Services Division in May 2012. The
Force Firearms Custodian said he continued to try to resolve the discrepancies and
provide updates to his supervisors but was not asked to provide regular detailed
briefings.

Chief Chambers did not recall receiving the Force Firearms Custodian’s July 28,
2011 memorandum, but she did recall meeting with Deputy Chief Chapman, the
Force Firearms Custodian, and possibly the Training Branch Captain to discuss
the firearms program during the fall of 2011. Chief Chambers believed that this
meeting updated her on the firearms program and included feedback from the
Force Firearms Custodian regarding programmatic help he might have needed.
Chief Chambers said she left the meeting with the impression that there was a lot
more work to be done but that everything was moving forward. She did not recall

This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) of the Freedom of Information
Act (FOIA).
                                                                                             7
any specific directions or orders that she had issued pertaining to information she
received during that meeting. She also did not recall how she followed up on
information she received during the meeting.

We interviewed a sergeant and a lieutenant assigned to the USPP Audits and
Evaluations Unit located within the Office of Professional Responsibility, which
ensures that all units follow proper protocols and procedures. Audits and
Evaluations also alerts USPP command staff to problems in a specific area, as
well as possible solutions for corrective action.

In a November 30, 2011 memorandum, Audits and Evaluations staff described
their findings during an audit and inspection of the Training Branch, which
included the USPP firearms program. They forwarded the memorandum through
their chain of command to Chief Chambers. In the memorandum, Audits and
Evaluations staff described the Force firearms inventory as a “critical failure.”
The memorandum stated that the weapons inventory was in “disarray” and that
numerous weapons were unaccounted for. The sergeant and lieutenant recalled
making this statement based on comments the Force Firearms Custodian made
during their inspection. They did not make any further inquiries or do anything to
document or confirm the comments.

The sergeant and lieutenant further stated that they had noted numerous
unaccounted-for weapons when they conducted their firearms program audit.
They found weapons in USPP possession that were not listed on official inventory
records. Neither the sergeant nor the lieutenant recorded any information on the
weapons they found, obtained any information on the serial numbers of the
unaccounted-for weapons, or made further inquiries about the weapons.

Major Jackie Burks, Commander, Office of Professional Responsibility,
acknowledged that both the Audits and Evaluations and the Internal Affairs units
fall under her supervision. Major Burks did not recall seeing the section of the
Audits and Evaluations memorandum that described the findings concerning the
firearms program or its numerous weapons that were unaccounted for. She said
that she took no action on the findings other than to send the memorandum to
Chief Chambers, to whom she reported directly at that time.

We showed Deputy Chief Chapman a copy of the Audits and Evaluations Unit
memorandum. Although Deputy Chief Chapman, who was a major in charge of
the training branch at the time, did not recall seeing the memorandum, we found a
February 7, 2012 email from him to the Training Branch Captain that appears to
reference and attach the memorandum.

Chief Chambers did not specifically recall receiving the Audits and Evaluations
Unit memorandum but commented that the phrase “critical failure,” used to
describe the firearms program, would have justified her personal involvement.

This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) of the Freedom of Information
Act (FOIA).
                                                                                             8
Limited Supervision by Management
The Force Assistant Property Officer’s work was not checked to see if it had been
completed correctly. Deputy Chief Chapman told a property officer that the
property office had failed to properly enter data. The Force Assistant Property
Officer had been told to make the required corrections but still did not have the
accuracy of his work checked.

The Force Firearms Custodian claimed that his supervisors did not provide any
specific instructions regarding his firearms duties when he assumed his custodial
responsibilities. When discussing the work performed by the Force Firearms
Custodian, the former Training Branch Lieutenant said that the Force Firearms
Custodian had been thorough and very good at his job so she “pretty much let him
run” the firearms program.

Deputy Chief Chapman also said that he relied on “people’s words” that the
semiannual firearms inventories were complete. He was not aware that the Force
Firearms Custodian refused to sign the second semiannual firearms inventory for
2012.

When interviewed, Chief Chambers said that she did not personally verify that
firearms inventories were correct since she considered that to be the responsibility
of people in her chain of command. She did not know how her staff confirmed
that inventories were accurate or how they listed which weapons were missing or
unaccounted for on inventory records. Chief Chambers believed her signature on
the weapons inventory indicated that everything had been reconciled and all
weapons had been accounted for.

We showed Chief Chambers the memorandum that she signed on August 30,
2012, certifying the second semiannual inventory for fiscal year 2012. She
recalled signing the memorandum and expressed confidence that all the necessary
supporting documents accompanied the inventory. Chief Chambers also recalled
that Deputy Chief Chapman told her the inventory was accurate.

Failure To Fully Reconcile Unaccounted-for or Missing Weapons
We were unable to identify a clear USPP policy or procedure for reporting and
investigating missing weapons. We did identify, however, that USPP did not fully
investigate weapons it could not account for.

After attempting to rectify discrepancies with the firearms inventory, a weapons
custodian created an incident report on October 14, 2011, listing 18 unaccounted-
for pistols, shotguns, and rifles he had entered into the National Crime
Information Center (NCIC) database as missing or stolen. The Training Branch
Captain recalled that the incident report was discussed at a meeting held in Chief
Chamber’s office in late 2011 or early 2012. He did not know that the incident


This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) of the Freedom of Information
Act (FOIA).
                                                                                             9
report had not been provided to the Internal Affairs Unit and said that the
information should have been provided to that unit.

Many individuals we interviewed did not clearly know how information about
missing weapons reached the appropriate investigative unit within USPP. A
lieutenant previously assigned to the Internal Affairs Unit did not know of the
incident report and was unaware of any policy or official requirement
necessitating notification of the Internal Affairs Unit when weapons went
missing. When discussing the incident report, Burks said that the report should
have gone through the chain of command. She said that Chief Chambers should
have been notified and that the chain of command should have decided how to
investigate the case. Burks also said that she had not seen the incident report and
did not know about any missing weapons other than the noninventory cases the
Internal Affairs Unit had investigated. She said she had not been in any staff
meetings where missing and unaccounted-for weapons had been discussed. Burks
said that something of this magnitude should have been reported up through the
chain of command to Chief Chambers and that the Internal Affairs Unit should
have been aware of the issue.

Deputy Chief Chapman said the Training Branch Captain notified him of the
weapons discrepancy and that he had instructed the Captain to document the
missing weapons in a report. He was told that the firearms unit had searched
everywhere for the unaccounted-for weapons. Deputy Chief Chapman believed
that the information had been forwarded to the Internal Affairs Unit and was
unaware that the unit had not been notified. Deputy Chief Chapman identified the
failure to notify the Internal Affairs Unit as a breakdown in procedure.

Chief Chambers said she usually found out about missing weapons through the
USPP shift commander who notified the command staff. She said an investigation
of the loss, theft, or disappearance of a weapon depended on the circumstances
and location associated with the situation. Chief Chambers did not know the
background of the missing weapons listed with NCIC. She believed that these
weapons could have been missing for decades and therefore could not be
investigated since many of the people involved had retired, leaving no paper trail.

During the course of our review, the Force Firearms Custodian reported that 17 of
the 18 weapons reported as missing in the October 2011 incident report were
either disposed of, transferred to other agencies, or still in USPP possession. Only
one weapon on that list, a Remington 870 shotgun, has not been accounted for.

Determination of Need for New Weapons
Deputy Chief Chapman told us that each USPP unit determined its own weapons
needs and sent weapons requests through its chain of command. He said that the
deputy chief of the individual unit determined the need for a weapon. Deputy
Chief Chapman said he did not always see the requests for new weapons until

This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) of the Freedom of Information
Act (FOIA).
                                                                                             10
after those requests had been approved by the chief but before the requests went
forward to USPP contracting officials.

According to Deputy Chief Chapman, weapons transferred from other agencies
did not go through this process. He said the Training Branch firearms unit
determined its weapons needs and that he was the approving authority for those
items.

The Force Firearms Custodian said he usually notified his lieutenant or sergeant
when he had the opportunity to transfer newer weapons. He was not sure whether
or not such information made it up the chain of command to Deputy Chief
Chapman. The Force Firearms Custodian believed he had “tacit approval” to
obtain transferred weapons unless he was told otherwise.

Key Personnel With Limited Property Management Training or Policy
Knowledge
According to both the Force Property Officer and Force Assistant Property
Officer, NPS Handbook guidance and the corresponding NPS Director’s Order 44
governed weapons management policy within USPP. A former Training Branch
Lieutenant and a Captain told us that they had not read either document and had
received no training on property management.

Limited USPP-specific Policies
We also found that the USPP Firearms Policy (General Order 3601) primarily
addresses requirements for qualifications and use of force; the policy does not
address weapons inventories or missing weapons issues. The Force Firearms
Custodian and former Training Branch Captain said they were in the process of
modifying portions of this general order to include firearms inventory
management.

Deputy Chief Chapman said he was familiar with NPS policy documents
governing the firearms program and that his office used those documents to
ensure USPP compliance with DOI policy. He said he relied on the Training
Branch Captain, who worked closely with the firearms program staff to ensure
such compliance with DOI policies.

The Force Property Officer stated that USPP did not have any official policies,
other than those developed by NPS, covering procedures related to weapons
acquisitions, inventory, transfers, or disposal. He said that his office was working
on a draft policy document.

On September 30, 2010, DOI issued an interim Departmental Manual, Part 446,
Chapter 10, which pertained to firearms and other defensive equipment. The
update required bureaus and offices to establish policy and procedures for
acquisition, storage, issuance, tracking and disposal of firearms. In addition, it

This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) of the Freedom of Information
Act (FOIA).
                                                                                             11
required bureaus and offices to fully investigate stolen or missing firearms. A
subsequent interim policy, issued on August 16, 2012, maintained that missing or
stolen firearms were to be fully investigated.

Board of Survey for Missing or Unserviceable Weapons Not
Conducted
The DOI Office of Acquisition and Property Management program manual
defines firearms as sensitive property and requires boards of survey to investigate
circumstances surrounding lost, stolen, damaged, or destroyed and otherwise
unserviceable sensitive property. These policies establish requirements for
investigating, reporting, and determining relief of accountability and personal
financial liability for lost, stolen, damaged, or destroyed Government property.

The Force Assistant Property Officer said that paperwork requesting a board of
survey inquiry concerning weapons reported missing in October 2011 by the
Force Firearms Custodian had been completed. He did not know, however, if the
actual board of survey for the missing weapons had been conducted. He recalled
providing a property officer with that documentation and said that the property
officer was supposed to take it to headquarters for approval. He did not recall
receiving a signed copy of the document. He also indicated that he had not
checked with the property officer about the status of the board of survey. The
Force Assistant Property Officer believed that the last board of survey for
weapons was conducted in 2010.

The Training Branch Captain told us that he was familiar with the concept of a
board of survey and, in fact, had been named chair of the USPP board of survey
sometime in 2009. He surmised that he was still chair. He recalled being given a
packet of information about boards of survey but said that he received no
guidance or training on conducting them. He said that he had never conducted a
board of survey and did not know who its members were.

Contrary to DOI policy, the Training Branch Captain did not believe a board of
survey needed to be conducted for missing weapons. He said a board of survey
had not been conducted for the missing USPP weapons listed in NCIC.

Deputy Chief Chapman said a board of survey should be conducted whenever an
item is lost or stolen. He did not know, however, if a board of survey had been
conducted for the missing weapons reported to NCIC. Deputy Chief Chapman
also said that he knew the Training Branch Captain had responsibility for the
board of survey but that he never asked him whether it had been completed.

Chief Chambers stated that she was not aware of what a board of survey was and
whether it was required to be conducted for missing weapons.



This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) of the Freedom of Information
Act (FOIA).
                                                                                             12
Recommendations
We are providing 10 recommendations to improve firearms accountability
throughout USPP. We recommend that the Director, National Park Service,
require USPP to:

    1. Comply with GAO Standards for Internal Controls in the Federal
       Government and OMB Circular A-123, which governs Management’s
       Responsibility for Internal Control; by October 1, 2013;

    2. Revise USPP property and firearms policies to ensure compliance with
       DOI and NPS regulations, policies, and directives regarding accountability
       of sensitive property by October 1, 2013;

    3. Immediately conduct a complete inventory and serial number verification
       of all firearms in USPP custody and ensure that the complete inventory is
       entered into FBMS and provided to OIG;

    4. Immediately cease using informal property accountability records
       (spreadsheets and lists) and only use the official FBMS property record for
       weapon accountability;

    5. Initiate quarterly inventories of USPP weapons with serial number
       verifications by January 2014 and provide results of each inventory to
       OIG within 30 days of completion;

    6. Reduce the USPP firearms inventory to no more than the minimum
       necessary to equip the USPP law enforcement program in accordance with
       NPS Personal Property Management Handbook No. 44, Section 9.1, by
       October 2013;

    7. Require the Chief of Police and other senior USPP officials responsible
       for oversight of firearms to acquire working knowledge of all relevant
       regulations, policies, and directives regarding effective property controls
       and requirements;

    8. Ensure that the Chief of Police personally approve all future firearms
       acquisitions (purchases and transfers) and that all acquisitions are sent
       directly to the Force Property Officer to be entered into FBMS;

    9. Ensure that all weapons are retrieved and accounted for upon departure of
       USPP personnel from the Force; and



This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) of the Freedom of Information
Act (FOIA).
                                                                                             13
    10. Identify and provide appropriate training in basic property management
        and inventory control requirements for all property and firearms
        custodians and USPP Audit and Evaluation personnel.




This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) of the Freedom of Information
Act (FOIA).
                                                                                             14
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doi.gov/oig/index.cfm

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
